GR-40-98-023
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Grant to the Carthage, Mississippi, Police Department
Grant No. 95-CF-WX-3561
 
GR-40-98-023
 
September 1998
 
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of the
grant awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Carthage, Mississippi, Police Department (Carthage PD).
The Carthage PD received a $59,014 grant, No. 95-CF-WX-3561, under the Funding Accelerated
for Smaller Towns (FAST) program, to hire one additional officer. The purpose of the
additional officer is to enhance community policing efforts.
The Carthage PD charged costs to the grant that were not in accordance with grant
conditions. Specifically, the Carthage PD claimed reimbursement for: 


$17,801 salary paid in excess of the entry level salary; and


$15,365 overtime paid which was not authorized under the grant.

Also, one of four community leaders we interviewed stated the Carthage PD could take
steps to improve relations with the youth of the city.
These items are discussed in the Findings and Recommendations section of the report.
Our scope and methodology appear in Appendix II.
#####